5/18/2016

Provident Credit Union: Credit Cards (Visa): Rates

For best print results, click on the "Print" link under the on­screen page headline (available on most
pages).

RATES, FEES, AND TERMS
Show Information For:

Share Secured Visa
To see rates, terms, & fees for a different card, select it from the menu above.

Interest Rate and Interest Charges
Annual Percentage Rate (APR) for
Purchases

(Effective May 18, 2016)

8.90% introductory APR on purchases during the first six (6)
months on account opening.

10.90%

Thereafter, your APR for purchases will be
based on your
credit worthiness. This APR will vary with the market based on the Prime
Rate*.
APR for Balance Transfers

10.90% for six months.
After that the APR will be 12.90% based on your credit
worthiness. This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

12.90%. This APR will vary with the market based on the Prime
Rate.

Penalty APR and when it applies

18.00% APR. This APR may be applied to your account if your
account is past due by two minimum payments.
How long will the Penalty APR apply? If your APRs are increased for this
reason, the Penalty APR will apply until you make six consecutive
minimum payments when due.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $.50.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
To learn more about factors to consider when applying for or using a
Consumer Financial Protection Bureau credit card, visit the Web site of the Consumer Financial Protection
Bureau.
http://providentcu.org/index.asp?i=visaRates&search=card=secured&rewards=true

1/1

